Audit Report



Return
    to the USDOJ/OIG Home Page




Use of Equitable Sharing Revenues by the Kings County, New York District Attorney's Office

GR-70-03-004


March 2003
Office of the Inspector General


EXECUTIVE SUMMARY





The U.S. Department of Justice (DOJ), Office of the Inspector General, Audit Division, has completed an audit of the use of DOJ equitable sharing revenues by the Kings County, New York District Attorney's Office (District Attorney's Office).  Equitable sharing revenues represent a share of the proceeds from the forfeiture of assets seized in the course of certain criminal investigations.1   During the period of July 1, 2000 through June 30, 2002, the District Attorney's Office was awarded DOJ equitable sharing revenues totaling $1,244,284 to support law enforcement operations.
 We found that the District Attorney's Office generally complied with DOJ equitable sharing guidelines.  However, we found weaknesses related to the use of equitable sharing revenues, the accounting for equitable sharing receipts, the timeliness of deposits, and the accounting for interest earned.  As a result we question the $428,850 in equitable sharing funds expended by the District Attorney's Office in its FYs 2001 and 2002.  Specifically, we found weaknesses in the areas below.

The District Attorney's Office paid or "passed through" to other governmental entities equitable sharing funds totaling $269,901, but was unable to produce support for  the use of those funds.  One such payment totaling $89,180 was made to an ineligible recipient.
The District Attorney's Office used $158,949 of federal equitable sharing funds for routine operational expenses during FY 2001.  We question these costs and recommend that the Department of Justice Criminal Division remedy the questioned costs expended for routine operational telephone expenses.
Equitable share receipts could not all be traced from the United States Marshals Service disbursement records to the District Attorney's Office accounting records.
Six tested receipts were not timely deposited within one business day.
The District Attorney's Office maintained three bank accounts that held Justice equitable share funds.  Pre-1994 equitable share receipts were deposited to one checking account and commingled with other funds.  Interest in this account was not allocated or segregated as required.

The results of the audit are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.


Footnotes

The DOJ asset forfeiture program has three primary goals:  (1) to punish and deter criminal activity by depriving criminals of property used or acquired through illegal activities; (2) to enhance cooperation among foreign, federal, state and local law enforcement agencies through equitable sharing of assets recovered through this program; and, as a by-product; (3) to produce revenues to enhance forfeitures and strengthen law enforcement.